No. 20-391

 

 

IN THE

Supreme Court of the United States

JODY LOMBARDO, ET AL.,
Petitioners,
Vv.
City oF ST. LOUIS, ET AL.,
Respondents.

On Petition for a Writ of Certiorari to the United
States Court of Appeals for the Eighth Circuit

BRIEF OF THE NATIONAL ASSOCIATION
OF CRIMINAL DEFENSE LAWYERS AND
THE AMERICAN CIVIL LIBERTIES UNION AS
AMICI CURIAE IN SUPPORT OF PETITIONERS

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains

5,964 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on October 26, 2020.

 

Colin Casey Hagan
Wilson-Epes Printing Co., Inc.
